U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

James Atwood v. United States of America,
S.Ct. No. 20-8213

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 27,
2021, and placed on the docket on June 3, 2021. The government’s response is due on July 6,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8213
ATWOOD, JAMES
USA

MICHELLE L. JACOBS
BISKUPIC & JACOBS SC
1045 W GLEN OAKS LANE
STE. 106
MEQUON, WI 53092
262-241-0033
MJACOBS@BISKUPICJACOBS.COM

